                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A-04070052                                                           11          Page 1 of 1



         We received an allegation that two figures representing essentially the same data appeared to
         have been falsified or fabricated. We observed that the two figures, one in a publication' and the
         other in a t h e ~ i sindicated
                                ,~       they presented the same results. However, the figures were not
         identical. Further, neither the publication, nor the thesis, contained the actual data used to
         produce these figures, making an evaluation of this issue difficult. Although there were several
         co-authors on the publication,3 the common link between the figures involved two scientists,
         subjects 1 and L ? . ~

         When asked to explain this issue, the subjects, responded separately and on more than one
         occasion, provided limited and confusing information. As a result of these responses, we were
         unable to determine if there was sufficient substance to proceed to an investigation. Therefore,
         we referred the inquiry to the appropriate institution5 to determine if there was substance to the
         allegation.6
         The institution thoroughly compared the figures to the original data, which it procured from the
         laboratory at which it was originally taken. It concluded that the discrepancies found between the
         original data and the figures and between the figures was the consequence of egregious
         carelessness. It alBo determined that, although there were discrepancies, the overall data as
         presented in the figures did not change the focus of the conclusions drawn. The institution
         criticized both subjects for their carelessness. It concluded that no research misconduct had
         occurred.
         We found the institution had done a careful and thorough inquiry. We concurred with its
         conclusion and, accordingly, we wrote to each subject emphasizing the institution's conclusion
         concerning their carelessness. This case is closed and no further action will be taken.




ISF OIG Form 2 (1 1/02)
